<html>
<title> - THE IRAN-NORTH KOREA STRATEGIC ALLIANCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                THE IRAN	NORTH KOREA STRATEGIC ALLIANCE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2015

                               __________

                           Serial No. 114-76

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-694 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                         
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York

                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Ilan Berman, vice president, American Foreign Policy Council.     9
Ms. Claudia Rosett, journalist-in-residence, Foundation for 
  Defense of Democracies.........................................    21
Larry Niksch, Ph.D., senior associate, Center for Strategic and 
  International Studies..........................................    34
Jim Walsh, Ph.D., research associate, Security Studies Program, 
  Massachusetts Institute of Technology..........................    56

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Ilan Berman: Prepared statement..............................    12
Ms. Claudia Rosett: Prepared statement...........................    23
Larry Niksch, Ph.D.: Prepared statement..........................    36
Jim Walsh, Ph.D.: Prepared statement.............................    58

                                APPENDIX

Hearing notice...................................................    84
Hearing minutes..................................................    85

 
                THE IRAN-NORTH KOREA STRATEGIC ALLIANCE

                              ----------                              


                         TUESDAY, JULY 28, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                Subcommittee on Asia and the Pacific and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 3:03 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Poe 
[chairman of the Subcommittee on Terrorism, Nonproliferation, 
and Trade] presiding.
    Mr. Poe. The subcommittees will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation in the rules.
    I do want to thank especially our witnesses for being here 
and the members as well. This apparently is Iran day at Capitol 
Hill, and so we will continue the discussion of Iran.
    The long history of secret cooperation between Iran and 
North Korea in violation of international law stretches back 
for decades. North Korea first sold Iran ballistic missiles 
during the 1980s during Iran's war with Iraq. By the end of the 
1980s, North Korea and China were supplying Iran with about 70 
percent of its arms. Move to the 1990s, and Iran and North 
Korea had moved onto working together to develop long-range 
ballistic missiles. North Korean long-range ballistic missiles 
became the basis for the Iranian Shahab missile series, which 
currently threatens Israel, our other Middle East allies, and 
even Central Europe. In fact, the intelligence community has 
said that missile cooperation between Iran and North Korea has 
provided Iran with an increase in its military capabilities. By 
the beginning of the 2000s, the Iranians were giving North 
Korea sensitive data from their own missile tests to improve 
the North Korean missile systems. In fact, Iranian officials 
have been present at nearly every major North Korean missile 
test.
    This history of very close cooperation on ballistic 
missiles only has the potential to grow and deepen as a result 
of the Iranian nuclear deal. In 8 years, Iran will be able to 
freely work on its ballistic missile system. Iran was able to 
achieve so much in secret, thanks to its North Korean allies. 
We can only imagine what it will be able to do after the ban on 
the ballistic missile program is lifted.
    There is a growing evidence that Iran and North Korea have 
not only been cooperating on missile programs but also in the 
nuclear field. The media reports, as far as back as 1993, that 
there are indications that the Iranians financed North Korea's 
nuclear program with $500 million in return for nuclear 
technology. South Korean news outlets rang the alarm in 2011 
alleging that hundreds of North Korean nuclear and missile 
experts were working in Iran. One of those places that had 
North Korean experts working in it was Natanz, a nuclear 
facility where centrifuges will continue to enrich uranium 
under the nuclear deal.
    Iranian defectors have also revealed a long history of 
North Korean experts working on the Iranian nuclear program. 
Just like with the missile program, Iranian officials have 
attended nearly every North Korean nuclear test, gleaning 
important information to improve their nuclear program. Last 
month, an Iranian opposition group claimed that nuclear expert 
delegations from North Korea had traveled to Iran three times 
this year alone. The delegations allegedly met with Iranian 
officials responsible for nuclear warhead design. These recent 
visits occurred as Iran was buckling under a serious sanctions 
regime.
    Now that sanctions probably will be lifted and Iran will 
receive anywhere from $50 billion to $150 billion in what I 
term a signing bonus and hundreds of billions of dollars more 
in oil revenue, that means a lot more money to pay cash-hungry 
North Korea for game-changing nuclear technology and expertise.
    The strong relationship between Iran and North Korea was 
forged in secrecy. We do not even know the full extent of their 
working together. What we do know is that now that the world 
has given the Iranian nuclear program an apparent stamp of 
approval, North Korea has a lot to gain from the Iranians as 
well.
    Continued work on the Iranian nuclear program will mean 
more transfer of sensitive nuclear information back and forth 
between the two most dangerous rogue regimes in the world. A 
better understanding of the strategic alliance between Iran and 
North Korea highlights the inherent dangers of an Iranian 
nuclear program. Unfortunately, it appears that these dangers 
will only multiply as soon as the nuclear deal goes in effect.
    I will now turn to the ranking member of the subcommittee, 
Mr. Keating from Massachusetts, for his opening statement.
    Mr. Keating. Thank you, Chairman Poe, Chairman Salmon, and 
Chairman Ros-Lehtinen, for conducting this joint hearing today. 
I would also like to thank our witnesses for being here today 
to discuss the relationship between Iran and North Korea.
    As this morning's full committee hearing with Secretaries 
Kerry, Moniz, and Lew demonstrated, there are many questions 
that remain among members of this committee regarding the scope 
of the threat of Iran and North Korea. I believe that you will 
be able to provide valuable insight on this issue and I look 
forward to your testimony.
    Both Iran and North Korea present national security threats 
to the United States and our allies. They each have a history 
nuclear proliferation, engage in serious human rights abuses, 
and are a source of instability in their respective regions. 
Iran is a sponsor of terrorism through illicit activities led 
by the Islamic Revolutionary Guard Corps and Quds Force. Most 
threatening is its network of partners beyond its borders and 
the influence that its funding and support holds over the 
region.
    Likewise, North Korea is known to be heavily involved in 
transnational organized crime. Make no mistake, Iran and North 
Korea are dangerous actors on the world stage.
    Generally, the extent to which an adversary is considered a 
threat can be measured by considering its capability times its 
intent. As we review and analyze the Joint Comprehensive Plan 
of Action transmitted to Congress, we must consider how a 
nuclear agreement with Iran would impact its capabilities and 
intentions beyond its borders. With this in mind, it is worth 
exploring whether, as some have suggested, a nuclear deal with 
Iran might enable and promote it to obtain nuclear or missile 
technology from cash-strapped North Korea.
    But in doing so, we have to rely on credible evidence. For 
example, we know that North Korea sold Scud missiles to Iran 
beginning in the 1980s, and according to the U.S. intelligence 
community, the two countries have cooperated significantly on 
ballistic missile technology, but according to the 
Congressional Research Service, according to unclassified and 
declassified U.S. intelligence community assessments, and in 
reports of that nature, they indicate to date that there is no 
evidence that Iran and North Korea have engaged in nuclear-
related trade or cooperation with each other.
    I look forward to hearing more from our witnesses about any 
cooperation between Iran and North Korea with respect to 
nuclear or missile technology and how the Joint Comprehensive 
Plan of Action might affect the relationship between these two 
countries.
    With that, I yield back.
    Mr. Poe. Thank the gentleman from Massachusetts.
    This is a joint subcommittee hearing with three 
subcommittees, and all three chairs are here. I will now 
recognize the chairman of the Asia and the Pacific 
Subcommittee, Mr. Matt Salmon from Arizona, for his opening 
statement.
    Mr. Salmon. I think there was a line in a movie like, Mr. 
Chairman, Madam Chairman.
    Ms. Ros-Lehtinen. Doctor, Doctor.
    Mr. Salmon. Yes, Doctor, Doctor.
    Anyway, it is great to be here with both of you today and 
to have this hearing. I would like to also thank our 
distinguished witnesses for coming to speak on this Iran-North 
Korea relationship.
    As we consider the administration's Joint Comprehensive 
Action Plan with Iran, we have to ask, will Iran follow through 
with its international obligations? After hearing the 
administration explain the terms of the deal this morning, I 
can't be so sure. The deal could put Iran on a path toward 
developing a nuclear bomb within 10 short years. As chairman of 
the Asia and the Pacific Subcommittee, I am concerned with the 
decades-long nuclear and military cooperation between Iran and 
North Korea and exactly what implications the deal has on their 
prospects for developing nuclear weapons.
    North Korea's nuclear weapons program has been the primary 
focus of the U.S.-North Korea policy for decades. It has tested 
three nuclear devices within the last 10 years and, in May 
2012, declared itself a nuclear arms state. North Korea appears 
to be expanding its capacity to produce both plutonium and 
highly enriched uranium for nuclear weapons. North Korea has 
repeatedly emphasized the role of its nuclear weapons as a 
deterrent and as a means to obtain concessions and cash in 
exchange for technology and components.
    North Korea has a track record similar to Iran of failing 
to meet international obligations. The February 29 of 2012 
agreement committed North Korea to a moratorium on nuclear 
tests, long-range missile launches, and uranium enrichment at 
the Yongbyon facility, as well as readmission of IAEA 
inspectors. In return, the administration pledged 240,000 tons 
of food aid. The deal quickly fell apart when North Korea 
announced its intention to launch a long-range rocket in March, 
successfully doing so in December 2012.
    North Korea's sales of missile technology and sharing of 
expertise to Iran is a major concern. Iran has cultivated a 
close relationship with North Korea on ballistic missile 
programs, beginning with the acquisition of Scud missiles in 
North Korea back in the 1980s. Iran continues to pursue 
capabilities that could ultimately be used to build missile-
deliverable nuclear weapons, and missile sales and missile test 
information have been a key source of hard currency for the Kim 
regime.
    In the past decade, Iran and North Korea have also 
cooperated on nuclear research and technology. In 2015 alone, 
North Korea nuclear experts allegedly visited Iran at least 
three times to exchange information and intelligence.
    Secretary of Defense Ash Carter stated in April that North 
Korea and Iran could be cooperating to develop a nuclear 
weapon, including sharing technology related to nuclear 
weapons, material production, or data from nuclear or 
explosives testing.
    Desperately insecure and cash-starved, North Korea remains 
hell bent on developing and improving its nuclear capabilities. 
With Iran's impending access to $100 billion of frozen assets 
under the Joint Comprehensive Plan of Action, Iran could use 
some of those assets to procure material, technologies, and 
expertise from North Korea. I hope our witnesses can inform us 
about whether this should be a major concern for Congress.
    Given the history of cooperation between North Korea and 
Iran, I am very concerned about what the Iran deal may mean for 
our national security interests in both the Middle East and 
Asia. We need to know their motives and the implications of 
their cooperation so we can prevent bad deals from the start 
and not allow bad actors to unite in nuclear proliferation 
efforts against international agreements.
    Thank you, Mr. Chairman. I yield back.
    Mr. Poe. I thank the gentleman from Arizona.
    The Chair recognizes the ranking member for the Asia and 
Pacific Subcommittee, Mr. Sherman from California.
    Mr. Sherman. I will use my 5 minutes to focus on our 
hearing this morning.
    Secretary Kerry, I think, gave us some very interesting 
information, as he said that whether this deal holds or doesn't 
hold, we are free to impose new sanctions on Iran to try to 
change its behavior with regard to terrorism, with regard to 
holding four American hostages, and with regard to its 
complicity in the crimes of Assad in Syria.
    Deal or no deal, we need to adopt additional sanctions. And 
the work, every time we have adopted sanctions on Iran, has 
started in this room. And I look forward to working, deal or no 
deal, with everyone here to have the sanctions that will change 
Iranian behavior.
    I point out that the proponents of the deal say sanctions 
changed Iran's behavior and caused it to give up its nuclear 
weapon design, what the proponents say is an excellent deal. 
The opponents of the deal say sanctions can change Iran's 
behavior if we only stick to our guns and get tougher. So the 
one thing everybody that has come to this room seems to agree 
on is that sanctions can change Iran's behavior, and that 
outside the nuclear area, Iran's behavior needs a lot of 
changing.
    The second comment that Senator Kerry made in response to 
one of my questions is that, as everyone knows, if we override 
the President's veto, certain U.S. statutory sanctions legally 
are the law of the land and the waiver provisions don't exist, 
so the President is obligated by law to enforce them. But I 
have been at this for a long time, and we know that Presidents, 
though, don't always enforce statutes against Iran. In fact, 
the Iran Sanctions Act was not enforced once by the prior 
administration, and a lot of sanctions were pretty much ignored 
the first couple of years at least of this administration.
    And I asked the Secretary whether he would obey the law 
under those circumstances, and he said that that was too 
hypothetical a question. I would like to go on record to say 
that under all hypothetical circumstances, I intend to obey the 
law, but moreover, the Secretary came to us to talk about a 
hypothetical situation: What happens if Congress overrides the 
veto? And he told us what India would do, what Europe would do, 
what Iran would do, what China would do, but when I asked him 
what the administration would do under those circumstances, it 
was too hypothetical.
    As to the issue before us, Iran's going to have a lot of 
money; North Korea has nuclear weapons and a thirst for money. 
What could go wrong? As we know, obviously, North Korea could 
sell a completed nuclear weapon. They could sell fissile 
material. They could sell a weaponization plan. They could sell 
a bomb without the fissile material and any combination of 
this. Iran and North Korea have a long relationship of working 
on military matters together from the 1980s, which increased in 
the 1990s. We used to get annual reports until 2013 of the 
concern that North Korea would export its nuclear technology.
    So we don't have any proof that it is about to happen. We 
don't have any proof that it has already happened. We just have 
a country that has almost seemingly a desperate desire for 
nuclear weapons and another one with a desperate desire for 
money. And we know that the one with the desperate desire for 
nuclear weapons is going to get its hands on a lot of money 
very soon.
    Now, the question is what we do about it. We have got to 
look at planes and ships that would connect the two. I think if 
there is an exchange of money for nuclear material, it is much 
more likely to take place on a plane. A ship gives us a chance 
to track it and a chance to make a decision as to whether to 
interdict and board. Of course, a ship is also possible. We 
should not be encouraging the civil aviation of Iran by selling 
them planes and parts. We know they are going to use those 
planes to take thugs to Damascus to kill people. And we hope 
they don't use the planes to go pick up a nuclear weapon in 
North Korea.
    So we have got to see what are the opportunities to 
interdict either the shipment of a bomb in one direction or 
cash in the other. We have got to keep track of what Iran does 
with the $56 billion to $150 billion they get from this deal. 
But, finally, I think we are dependent upon China, which 
exercises such significant control over the most critical 
aspects of what the North Korean Government does. If China is 
willing to turn a blind eye to a cash-for-bomb situation, I 
don't know if we can stop it, and we certainly--if they were 
willing to turn that blind eye at Beijing Airport, I know we 
couldn't stop it.
    I yield back.
    Mr. Poe. Thank the gentleman.
    The Chair recognizes the right honorable gentlewoman from 
the Middle East and North Africa Subcommittee, Ms. Ileana Ros-
Lehtinen from Florida.
    Ms. Ros-Lehtinen. Well, thank you so much, Judge Poe.
    I want to thank Judge Poe and Chairman Salmon for bringing 
our three subcommittees together to focus on the nexus between 
these two rogue regimes, Iran and North Korea.
    As Congress continues to do our due diligence on the Joint 
Comprehensive Plan of Action between the P5+1 and Iran that the 
Obama administration submitted to us last week, it is important 
that we do not make the same mistakes again.
    In 2008, I was outspoken against the George W. Bush 
administration for removing North Korea from the State Sponsors 
of Terrorism list as a concession to Pyongyang during 
negotiations over its nuclear program. And I am also outspoken 
against this administration's concessions to Tehran during the 
negotiations and ultimately this deal.
    Yet as far back as the Clinton administration, each 
administration continues to make the same mistakes of offering 
these rogue nations concessions while allowing them to maintain 
their nuclear infrastructure and misguidedly falling back on 
hope that this time will be different, this time things will 
change.
    These negotiations mirror the same track that the nuclear 
negotiations with North Korea took. Iran has been following the 
North Korean playbook on exactly how to extract concessions 
from the U.S. and the international community while 
simultaneously continuing to improve its nuclear program, 
expand its infrastructure, and support continues for its 
illicit activities.
    But it isn't just that the Iranian regime is following the 
North Korean playbook, successfully, I might add, it is that 
the Obama administration is following the same failed playbook 
that the Clinton and Bush administrations pursued. It is 
alarming and striking just how similar the language is between 
President Clinton's 1994 announcement of a nuclear agreement 
with North Korea and President Obama's announcement of a 
nuclear agreement with Iran earlier this month. Last week, Alan 
Dershowitz wrote about the similarities and even posted a chart 
that represented the similarities in the language, the words 
used between the Clinton administration and the Obama 
statements.
    In 1994, President Clinton said that the North Korea 
agreement will make the U.S., the Korean Peninsula, and the 
world safer. He assured us that the deal didn't rely on trust, 
that compliance would be certified by the IAEA. President 
Clinton also made the dubious claim that because of our 
willingness to engage North Korea on its nuclear profile, that 
would be a crucial step toward drawing Pyongyang into the 
global community and predicted the end of the rogue regime's 
isolation.
    Does any of this sound familiar to us? It should, because 
these are the same arguments that President Obama used when 
announcing the deal and that were used today in our Foreign 
Affairs full committee hearing.
    When the North Korea deal was reached, one of the most 
significant flaws was that it failed to dismantle any of 
Pyongyang's nuclear infrastructure. The deal was designed 
merely to delay the North Korean bomb, not prevent it, and we 
even promised, as we are doing in the JCPoA, to modernize and 
improve North Korea's nuclear infrastructure.
    And now we are aiming to prevent the Iranian bomb. The 
totality of this deal hinges on the bet by the administration 
and the rest of the P5+1 that the Iranian regime will see the 
error of its ways and wants to be part of the global community 
and will forsake its support for terror and other illicit 
behavior. That is a heck of a gamble to make when all of, not 
even just a preponderance, but all of the evidence indicates 
that this is not the likely outcome, but rather that Iran will 
use this as a means to increase its belligerence. And now with 
this deal, we are likely to see an increase in Iran-North Korea 
activity on ballistic missiles and covert nuclear actions 
because not only will we be lifting the sanctions on Iranian 
scientists and on Iran's nuclear program, but we will be 
lifting the sanctions on its ballistic missile program and its 
military leaders. And that is where Iran and North Korea are 
likely to resume their cooperation, on the weaponization and 
the ballistic missiles.
    This is a dangerous gamble for us to make with U.S. 
national security, and it is not a gamble that I or any of us 
should be willing to take. That is why we must reject this 
deal, demand a better deal, or else reimpose the sanctions and 
use the only action that Iran understands, strength, to force 
it to abandon its nuclear ambitions.
    Thank you, Mr. Chairman.
    Mr. Poe. The gentlelady yields back.
    The Chair will recognize the gentleman from Virginia, Mr. 
Connolly, for 1 minute.
    Mr. Connolly. Thank you, Mr. Chairman.
    You know, I just heard my friend from Florida equate these 
two agreements and call for the vote to disapprove the pending 
agreement with Iran. I think there are some lessons from North 
Korea. One was we decided consciously to not engage, and we 
paid a very heavy price for that. And in the case of Iran, we 
have decided to engage, and we have an agreement that you 
couldn't possibly compare to that with North Korea. And I just 
think, you know, we should never be afraid to be engaged, 
especially when it comes to the nuclear question. I don't think 
it is so cut and dried.
    While I respect my friend from Florida, I also respectfully 
disagree. I don't think this is a clear-cut case at all that 
calls for absolute rejection and renunciation by the Congress 
of the United States. I think that is a very momentous step, 
not a political one, it shouldn't be a political one and one we 
ought to contemplate with great care.
    So I certainly look forward to the testimony today, and I 
would like to hear some of the differences between North Korea 
and Iran, because I happen to think they are pretty profound.
    I yield back.
    Mr. Poe. Thank the gentleman from Virginia.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I have got a question 
for the ranking member. You know, what is keeping North Korea 
from selling ballistic missiles or nuclear weapons to Iran 
today? Regardless of whether we walk away from this agreement 
or not, North Korea can still sell them the weapons. Nothing is 
stopping them.
    In February and April 2007, North Korea agreed to 
``abandoning all nuclear weapons and existing nuclear programs, 
and returning at an earlier date to the Treaty on the 
Nonproliferation of Nuclear Weapons and the IAEA safeguards.'' 
Supposedly this significant achievement commits all six parties 
to a denuclearized Korean Peninsula and will lead to a more 
stable and secure northeast Asia. For doing this, North Korea 
received, as it complies with its commitment, they received 
950,000 tons of heavy fuel oil. Well, guess what? In September 
2008, they cranked the nuclear program back up, and to this 
day, they have a nuclear weapon. Those are the facts. North 
Korea has got a nuclear weapon.
    If Iran wants a nuclear weapon, regardless of what this 
agreement that we talked about today at length, if we don't 
have the ability to inspect the appropriate sites, they are 
still going to get a nuclear weapon. This agreement has no 
teeth, and they are going to have $150 billion to give arms and 
money to Hezbollah and Hamas. They are still exporters of 
terrorism. Those are the facts.
    I yield back.
    Mr. Poe. The gentleman yields back.
    Does any other member wish to be recognized for an opening 
statement? If not, I will introduce our witnesses.
    Once again, I want to thank all four of you for being here 
today on this day of Iran at the Capitol Hill.
    Mr. Ilan Berman is vice president of the American Foreign 
Policy Council. Mr. Berman is widely published on issues of 
regional security and foreign policy and has also consulted for 
the CIA, the Department of Defense, and many other government 
agencies.
    Ms. Claudia Rosett is a journalist-in-residence at the 
Foundation for Defense of Democracies. Ms. Rosett is widely 
recognized as a groundbreaking reporter and won the 2005 Eric 
Breindel award and the Mightier Pen award for her work on the 
U.N. Oil-for-Food scandal.
    Dr. Larry Niksch is a senior associate at the Center for 
Strategic and International Studies. Dr. Niksch specializes in 
U.S. security policy in East Asia and the Western Pacific.
    And Dr. Jim Walsh is a research associate at the 
Massachusetts Institute of Technology's Security Studies 
Program. Dr. Walsh is one of a handful, and a very few handful, 
of Americans who have traveled both to Iran and North Korea for 
talks with officials regarding nuclear issues.
    Each of you will have 5 minutes. There should be three 
lights in front of you. The red one means it is time to stop.
    We will start with Mr. Berman. You have 5 minutes. And your 
statements all are in the record, so we have all your 
statements. You may summarize them or you may read your 
statement.

STATEMENT OF MR. ILAN BERMAN, VICE PRESIDENT, AMERICAN FOREIGN 
                         POLICY COUNCIL

    Mr. Berman. Thank you, sir.
    Chairman Poe, Chairman Salmon, Chairwoman Ros-Lehtinen, 
Ranking Members Keating, Sherman, and Deutch, thank you so much 
for the opportunity to be present before you today to talk 
about this issue.
    The strategic partnership between Iran and North Korea is 
one of the most significant, yet one of the most often 
overlooked aspects of the strategic threat that is posed both 
by Iran and by North Korea. It is also one that today, as 
Congress begins to deliberate over the new nuclear agreement 
struck between the P5+1 and Iran, merits renewed attention by 
this committee and by Capitol Hill as a whole.
    Because my time is limited here, let me focus on just three 
aspects of this strategic relationship, which are important in 
their own right, certainly, but also important in particular 
because of the implications they hold for the JCPoA.
    The first is that Iran's relationship with North Korea is 
vibrant, certainly, but it is not unique. It makes up part of a 
larger global strategy that is being pursued by the Islamic 
Republic, and not just in Asia: It is being pursued in Latin 
America; it is being pursued in Europe; it is being pursued in 
Africa. And it is one that is designed simultaneously to lessen 
Iran's global isolation as a result of the sanctions imposed by 
us and our international partners, and also, more ambitiously, 
to expand its strategic reach. And in Asia, in particular, what 
Iran has done has mirrored very much the Obama administration's 
own Asia pivot, where in 2011, we have declared our interest in 
the region as an area of new opportunity and new strategic 
focus. The Iranians have done so as well, but not just in an 
economic sense and not just in a military sense. Iran has 
looked toward Asia in particular as a defense industrial hot 
spot. And in this regard, the partnership Iran has built with 
North Korea is of particular importance.
    The second takeaway is that North Korea has materially 
aided Iran's strategic capabilities, and as a result, it has 
expanded the threat that Iran poses to the West. The members 
all talked in their opening statements about ballistic missile 
and nuclear cooperation between Iran and North Korea. This is 
vibrant. It is ongoing. And there is credible evidence to 
suggest that cooperation on these fronts has helped to 
materially enhance not only the Iranian nuclear program, but 
also the sophistication and the know-how of the North Korean 
effort as well. I am happy to delve deeper into that in the 
question and answers.
    The third takeaway, and I think the most germane, given 
that today is Iran day on Capitol Hill, is that Iran has 
learned a tremendous amount about nuclear diplomacy and about 
the way the West negotiates through the North Korean 
experience. Since the early 1990s, North Korea has engaged in 
extensive diplomacy with the international community over its 
nuclear program, and it has obtained significant diplomatic and 
economic inducements as a result of purported good behavior. 
These inducements have played an instrumental role in 
strengthening and stabilizing the Kim regime in Pyongyang, but 
they have not led Pyongyang to give up its nuclear program. To 
the contrary, it is very credible to say that they have made it 
possible for the North Koreans to continue their nuclear 
program and strategic programs.
    The North Koreans have reneged over time on every single 
one of the commitments that they have given in the Agreed 
Framework as well as in the now defunct Six Party Talks that 
stretched from 2003 to 2009. They have done so, notably, 
without adverse consequences, because the international 
community continues to maintain that a conciliatory posture 
rather than a punitive posture is likely to change North Korean 
behavior.
    Here we come to Iran, because Iran today finds itself in 
very much the same position. In fact, I would make the case 
that Iran finds itself in a much better one because the scope 
of the financial relief that is inherent in the JCPoA dwarfs 
the kind of economic and political stimuli that North Korea 
received as a result of its previous negotiations with the 
West.
    I made this case in a hearing last week, and just to 
reiterate, because the historical evidence backs it up, the 
JCPoA is tantamount to a Marshall Plan for the Islamic Republic 
of Iran. This sounds like an exaggeration, but it isn't. By way 
of comparison, I will point out that, under the terms of the 
JCPoA, later this year or early in 2016, once we have requisite 
verification from the IAEA, the U.S. will begin unblocking $100 
billion to $150 billion of frozen Iranian oil revenue. That sum 
equates to roughly a quarter of Iran's annual gross domestic 
product, which last year was $415 billion. It also matches or 
exceeds the entire post-World War II reconstruction plan for 
Europe that was marshaled by the Truman administration. That 
effort was launched in 1948 and facilitated the disbursement of 
$13 billion, equivalent to $120 billion in today's currency, to 
17 separate countries in Southern and Eastern Europe over the 
course of 4 years.
    Now, we hope that Iran will use the financial windfall that 
it receives from the JCPoA for domestic purposes. But it is 
quite clear that they can use it just as easily, because money 
is fungible, on strategic capabilities, on the support of 
terrorism. If and when they do so, and I think there is every 
reason to believe that they will, they will find, in their 
partnership with North Korea, a cash-strapped partner that is 
more than willing to provide them with the resources that will 
materially expand both their ballistic missile program and 
their nuclear program.
    Thank you.
    [The prepared statement of Mr. Berman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Mr. Berman.
    I would like to remind witnesses and members to abide by 
the 5-minute rule. We have votes in an hour and 5 minutes. 
Hopefully we can finish this hearing before we have votes. If 
not, then we will all get to come back later tonight and finish 
the hearing.
    Ms. Rosett.

   STATEMENT OF MS. CLAUDIA ROSETT, JOURNALIST-IN-RESIDENCE, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Ms. Rosett. Thank you. Chairman Poe, Chairman Salmon, and 
Ros-Lehtinen, thank you for the chance to testify here today.
    The administration tells us that the JCPoA cuts off all 
Iran's pathways to the bomb. That is simply not true. It does 
not cut off the pathways to North Korea. And I would be glad to 
provide you details on the shipping routes.
    For more than three decades, as you have just heard, they 
have been partners in arms, and North Korea's chief role in 
that partnership has been as a munitions back shop for Iran's 
Islamic Republic. At this point, as you know, North Korea has 
conducted three nuclear tests, is making nuclear warheads, 
estimated even by China to be reaching into the double digits, 
helped Iran's client state Syria build a reactor that was under 
construction for years before it was discovered and destroyed 
in 2007 by an Israeli air strike. It beggars belief that Syria 
dared do that without Iran playing some part in it. And they 
are--oh. One more item. Our top military officials have been 
testifying and saying to the press that they assess that North 
Korea has the capacity to fit a nuclear warhead on an ICBM, 
meaning they can target us, and if the Iranians get that, guess 
what they can target too?
    The two countries are diplomatic allies as well. This is 
based not just on weapons but on a shared hostility to the 
United States. They are both regimes--this is vital to 
understand--based on the coercive perfection of mankind, and 
they have expressed this. The current Supreme Leader of Iran, 
Ali Khamenei, went to visit the founding tyrant of North Korea 
in 1989, and they both celebrated in Pyongyang together their 
shared hostility to the U.S. I can give you much more recent 
examples. One of the first meetings that Iranian's nuclear 
negotiator, Javad Zarif, had in Iran after the first round of 
nuclear talks in Vienna last year was with a North Korean 
envoy.
    This deal in particular gives North Korea--gives, I am 
sorry, Iran--a gift to North Korea as well--four things that 
will make it more attractive for these two countries to 
collaborate specifically on nuclear development. One is the 
snapback sanctions, which actually are a disincentive for the 
United States and its partners to call out Iran for cheating. 
The penalty is basically to blow up the deal, and this means 
Iran will have to go very far before anyone calls it out. 
Perversely, that makes it safer for North Korea to cheat, 
specifically on nuclear matters with Iran.
    Second, money, obviously lots of money. In fact, the 
rounding terms in the money that Iran will get dwarf North 
Korea's annual merchandise trade exports.
    The third is procurement access. Iran will have far freer 
access globally both to the financial system and to markets, 
much easier to buy illegitimate goods. North Korea and Iran 
partner in weapons development. As convenient, you will have a 
procurement channel through Iran's overseas illicit networks. 
While inspectors are watching Iran, you are going to have to 
watch the rest of the globe. Much harder to detect.
    Finally, nuclear research and development, which will be 
given to Iran, yes, for civilian purposes, but even things as 
basic as welding, advanced welding skills, can be of great use 
to North Korea in its weapon programs to be fed back to Iran. 
And this research and development is to include workshops and 
training from America and its partners in thwarting sabotage of 
nuclear facilities.
    The administration is entirely secretive about anything to 
do with Iranian-North Korean nuclear cooperation. Many accounts 
in the press. What is missing is confirmation from the 
administration. That Congressional Research Service report 
notes that Congress might wish to ask the administration for 
much more classified information to be declassified. The flow 
of that has greatly dwindled in recent years.
    Finally, the point I would really like to stress is that 
these deals for North Korea have been not regime transforming, 
but regime sustaining. That is the lesson that Iran has 
certainly read into the failed North Korea deals that we have 
done, from which North Korea emerged with a nuclear bomb.
    The answer would not be to conclude another nuclear deal 
with North Korea. It is time that Washington focused on a real 
strategy and plan for bringing down the regime in Pyongyang. 
There is no other answer to their nuclear weapons, and it would 
be the most salutary message that could possibly be sent to 
Iran because the message would be that nuclear weapons do not 
make it easier for tyrannies to survive.
    Thank you very much.
    [The prepared statement of Ms. Rosett follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Poe. Thank you, Ms. Rosett.
    Dr. Niksch, 5 minutes.

STATEMENT OF LARRY NIKSCH, PH.D., SENIOR ASSOCIATE, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Niksch. Thank you, Mr. Chairman. One thing about my 
resume I should mention is that the main element of my career--
--
    Mr. Poe. Is your mike on, sir?
    Mr. Niksch [continuing]. I have been an alumnus of the 
Congressional Research Service for 43 years, where I worked on 
East Asian security issues----
    Mr. Chabot. Sir, if you could pull the mike a little closer 
too, it would be helpful. Thank you.
    Mr. Niksch [continuing]. Including the Iran-North Korean 
issue in the late 2000s.
    I want to address this policy of nondisclosure and denials 
coming from the executive branch about the North Korean-Iranian 
nuclear collaboration. And I have seen this for a number of 
years, going back into the Bush administration and continuing 
today. This has resulted in a relative obscurity of this issue 
in Washington. And the contrast here between these denials and 
this nondisclosure policy of the executive branch is the large 
volume of reports about both missile and nuclear collaboration 
between Iran and North Korea by reputable news media organs 
based on a large body of information provided to them by non-
U.S. officials, intelligence officials, and intelligence 
reports in the U.K., Germany, Japan, Israel, South Korea, and 
Australia.
    I think these sources and the volume of this material 
conclusively makes the case that there is not only high-level 
missile collaboration between North Korea and Iran, but there 
is also high-level nuclear collaboration between North Korea 
and Iran.
    Now, these non-U.S. sources basically lay out, I think over 
the years, several stages in how this Iran-North Korean 
strategic relationship has developed. I want to highlight stage 
three, which it seems to me began about 2011. Prior to that 
time, most of the flow of cooperation, benefits, and assistance 
flowed out from North Korea to Iran, but after 2011, I have 
seen a reverse flow from Iran into North Korea, expanding 
Iranian investment of personnel and money in North Korea's 
domestic nuclear and missile programs. Iranian missile 
scientists were stationed in North Korea for a large part of 
2012, well into 2013, to assist North Korea in preparing for 
that successful 2012 long-range missile test. And 
Representative Mike Rogers, then chairman of the House 
Intelligence Committee, was quoted in November 2013 that Iran 
and North Korea were working together to test engines for 
inter-continental ballistic missile.
    Now, what is the danger of this high level of 
collaboration, again, in both missiles and nuclear weapons? 
There is, I would argue, an immediate danger, and that is in 
North Korea's success since at least early 2013 in developing, 
and I think by this time probably mounting nuclear warheads on 
its intermediate-range Nodong missiles.
    Reports from Richard Engel of NBC News, Chris Nelson in the 
Nelson Report, and other statements from South Korean 
officials, I think, make it clear that North Korea has made 
this singular achievement in its nuclear weapons program.
    The danger immediately from this--and reports are that 
production of these warheads is increasing. That is what the 
Chinese nuclear experts told our people in February in Beijing. 
The danger simply is this: Iran's Shahab-3 intermediate-range 
missile is a twin of the Nodong, developed with considerable 
North Korean assistance. Nodong nuclear warheads will be, and I 
believe are, compatible with the Shahab-3. A North Korean-
Iranian agreement to share Nodong nuclear warheads, it seems to 
me, is a realistic possibility at this stage. North Korea and 
Iran have had successful sea and air clandestine transportation 
networks. There have been few interdictions of these networks. 
The transfer of Nodong warheads from North Korea to Iran would 
have a good chance of success. And given the forecast for 
production increases in North Korea, you could see a real 
danger of this developing, it seems to me, as early as 2016. 
Thus, if this happens, Iran would have a secret stockpile of 
nuclear warheads, in Iran, that it could unveil at any time of 
its own choosing and thus present the United States, Israel, 
and the rest of the world with a fait accompli, regardless of 
what happens with the Iran agreement or anything else that goes 
on with the Iranian nuclear program.
    [The prepared statement of Mr. Niksch follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Poe. I thank the gentleman. Members of Congress will 
ask you questions, so you can continue your statement.
    Dr. Walsh.

  STATEMENT OF JIM WALSH, PH.D., RESEARCH ASSOCIATE, SECURITY 
     STUDIES PROGRAM, MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Mr. Walsh. Mr. and Madam Chairs and Ranking Members, it is 
an honor to be with you today. In my remarks, I will focus on 
the single most important question regarding any Iran-North 
Korea relationship: Will Iran look to North Korea to help cheat 
on the nuclear deal?
    First, we need to ask, how should policymakers assess the 
risk of Iran-North Korea cheating? As I told the Senate Foreign 
Relations Committee, assessment is more than simply listing 
things that could go wrong. In theory, lots of things can 
happen, but in practice, very few of those possibilities come 
true. Experience and data enable analysts to distinguish 
between what is likely and what is unlikely.
    I would like to review with you the evidence available on 
this critical question. One piece of evidence, Iran's past 
nuclear behavior. The DNI has repeatedly testified that Iran 
had a structured nuclear weapons program that begin in the late 
1990s and was halted in 2003. These activities represent a 
clear violation of Iran's NPT obligations and provide a cause 
of concern that Iran might violate its commitments in the 
future.
    A second source of evidence, Iran's current capabilities 
and intentions. The DNI reported in 2012 that ``Iran has the 
capacity to eventually produce nuclear weapons, making the 
central issue its political will to do so''--not technical, 
political. ``. . .We assess Iran is keeping open the option to 
develop nuclear weapons should it choose to do so. We do not 
know, however, if Iran will eventually decide to build nuclear 
weapons.''
    To state it plainly, Iran does not currently have an active 
nuclear weapons program. It has no active covert weapons 
facilities, nuclear weapons facilities, and has not made a 
decision to pursue nuclear weapons. Of course, Iran could 
change course in the future, and the U.S. should take steps to 
minimize that possibility and be prepared to respond. 
Nevertheless, as a matter of risk assessment, these are 
favorable conditions for a nuclear agreement.
    On its face, it would seem odd for Iran to, A, have no 
weapons program; B, not to have made a weapons decision; C, 
agree to the most intrusive verification regime ever negotiated 
in a multilateral nonproliferation agreement; and D, then 
decide to cheat.
    Three, Iran-North Korea nuclear relations. Missile 
cooperation between Iran and North Korea has been well 
documented. Nuclear cooperation between the two is a different 
matter, however. People who believe there has been nuclear 
cooperation rely almost exclusively on media accounts. I have 
reviewed some 76 media reports covering a span of 11 years. 
None of the 76 reports has been confirmed--none. On the other 
side of the ledger, the DNI, the IAEA, the U.N. Panel of 
Experts for Iran, and the U.N. Panel of Experts for North 
Korea, despite numerous opportunities to do so, have never 
claimed Iranian-North Korean nuclear coordination. The 
Congressional Research Service concluded, ``There is no 
evidence that Iran and North Korea have engaged in nuclear-
related trade and cooperation.''
    It is worth pointing out that Iran and North Korea chose 
completely different paths for their weapons efforts. North 
Korea pursued a plutonium route, while Iran focussed on 
enrichment. At one point, North Korea decided to develop 
enrichment, but the centrifuges it fielded appeared to be 
different and more advanced designs than Iran's. So if Iran is 
helping North Korea, why are Iran's centrifuges worse?
    Finally, let me address the effects of the nuclear 
agreement on these risks. I judge that the agreement reduces 
the incentives for nuclear cooperation. First, if we find 
evidence of that cooperation, no matter how small, it will 
constitute a prima facie violation of the agreement. Second, it 
would require cross-regional transfers of people and material, 
which increases the risk of detection. Already we have ample 
cases of countries interdicting shipments by North Korea. 
Third, Iran would have to worry about the prospect that a North 
Korean defector might spill the beans. Iran will be sensitive 
to this possibility insofar as it is an alleged Russian that 
outed Iran's nuclear program in the early 2000s.
    Fourth, the mercurial nature of North Korea's young Kim 
Jong-un, complete with leadership purges and questionable 
behavior, might rightly give Iran pause at choosing it as a 
partner.
    Fifth, as a result of the agreement, surveillance on North 
Korea will likely increase, if only because governments fear 
such cooperation. And it will not simply be the U.S. that is 
doing the watching. Saudi Arabia and others will be motivated 
actors. Increased surveillance makes any cooperation between 
the two daunting and risky.
    In conclusion, I assess it is unlikely that Iran would 
attempt to cheat by collaborating with North Korea. Moreover, 
if it did, the chance that they would be detected would be 
substantial.
    Thank you.
    [The prepared statement of Mr. Walsh follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. I thank the witnesses.
    And I recognize myself for 5 minutes for questions.
    Does North Korea have nuclear weapons? That is a yes or no 
question.
    Mr. Walsh. To whom, Mr. Chair?
    Mr. Poe. To all four of you. Just go down the row.
    Ms. Rosett. Yes.
    Mr. Poe. Go down the row.
    Ms. Rosett. Absolutely.
    Mr. Niksch. Yes, including nuclear warheads for the Nodong 
missile.
    Mr. Poe. Okay.
    Mr. Walsh. I would--they have nuclear devices. They have 
tested nuclear devices.
    Mr. Poe. Do they have nuclear weapons?
    Mr. Walsh. A nuclear device is not a usable military 
nuclear weapon.
    Mr. Poe. So, no.
    Mr. Walsh. It is unclear. They have tested. That has been 
a----
    Ms. Rosett. The head of U.S. Forces Command Korea testified 
to Congress this spring that they have the ability to fit a 
warhead on an intercontinental ballistic missile. I think that 
we are looking at warheads here.
    Mr. Niksch. Richard Engel, the very experienced 
longstanding correspondent for NBC News, reported on April 3--
--
    Mr. Sherman. Microphone.
    Mr. Niksch [continuing]. In 2013 that his sources and 
contacts in the U.S. Government--and he has extensive sources--
--
    Mr. Poe. So, that is yes?
    Mr. Niksch [continuing]. In the U.S. Government, were 
telling him that North Korea had succeeded in developing a 
nuclear warhead for a missile with a range of 1,000 miles. Now, 
that missile in the North Korean arsenal is the Nodong. Chris 
Nelson reported a month later in the Nelson Report----
    Mr. Poe. Thank you, Doctor. I think I got your answer was a 
yes.
    I am reclaiming my time. I am going to ask the questions 
because I am going to limit myself as well as everybody else to 
the time. Thank you.
    I know that the President of North Korea made the comment, 
I guess it was last year, that he was trying to develop an 
intercontinental ballistic missile and send it to Austin, 
Texas. I am offended by that to some extent, being from Texas, 
that he picked Austin, but the--set aside the nuclear agreement 
with Iran, just set that aside. Can North Korea and Iran still 
cooperate in mischief, like promoting terrorism, weapon 
development, conventional weapons? Set that whole thing aside 
and assume Iran will follow it as it is written.
    Mr. Berman, I will ask you that question.
    Mr. Berman. The answer is yes, sir, with caveats, which is 
that some of these programs are expensive. They are extensive, 
and they are expensive. This is why, in my opening statement, I 
focused on the sanctions relief that is coming in the direction 
of Iran in the near term. Because this cooperation is ongoing 
now when Iran is under sanctions and the North Koreans are 
hurting for cold hard cash.
    You heard Dr. Niksch talk about the ``reverse flow.'' Part 
of that has to do with the fact that, as Iran becomes 
reintegrated into the global economic community, it will have 
greater money to spend on collaboration with other countries, 
including North Korea.
    Mr. Poe. Okay. Let me reclaim my time, Mr. Berman. In other 
words, they can still work together, and Iran can still follow 
the deal, but they can work together. That still would have a 
detrimental effect to the world. For example, in the work, I 
will ask you, Ms. Rosett, of terrorism. Iran being the world's 
number one state sponsor of terror--I think North Korea should 
be on the list, but they are not--can Iran continue to develop 
its terrorist activities in the world working with North Korea 
to achieve that goal and still follow the deal?
    Ms. Rosett. Yes. North Korea has been of substantial 
assistance to Hezbollah, which is something, again, the 
administration has been silent on, but a Federal case in which 
I testified as an expert witness last year found that they 
have----
    Mr. Poe. And be specific. Where is Hezbollah doing its 
mischief?
    Ms. Rosett. Southern Lebanon, which is pointing right at 
Israel, that is. And may I also give you an illustration of how 
North Korea, in fact, helped with proliferation in Vienna, 
right where the nuclear talks were taking place, there is an 
enormous North Korean Embassy on the edge of town, along with a 
big Iranian Embassy in the middle of it. And with the Syrian 
reactor, it was a former North Korean Ambassador to the IAEA in 
Vienna who set up an enormous procurement network spanning 
Europe, China, Asia, which helped buy the components for the 
Syrian reactor that the Israelis finally destroyed in 2007. 
There is no reason that could not be duplicated today. He 
worked through China, which through these entire negotiations 
has still not rolled up the illicit procurement network of 
another Chinese proliferator to Iran, Li Fangwei, for whom 
there is a $5-million reward offered by the State Department, 
who remains active, although the U.S., since 2004, has been 
demarching the Chinese to please try to shut him down. So is it 
possible? Oh, yes, with bells.
    Mr. Poe. Thank you.
    I will yield 5 minutes to the gentleman from Massachusetts, 
Mr. Keating, the ranking member.
    Mr. Keating. Thank you, Mr. Chairman.
    A couple of questions for Dr. Walsh, one in terms of 
nuclear cooperation; the other in terms of missile cooperation.
    The first one, my understanding is that Iranian and North 
Korean nuclear programs differ significantly in the types of 
fissile material and the types of centrifuges that are being 
used. Given those differences, how much would Iran benefit from 
nuclear cooperation with North Korea should that occur?
    Mr. Walsh. Well, I think, Congressman, that the DNI has 
made it clear that Iran as a basic nuclear weapons capability, 
because they know how to build a centrifuge. You can't bomb 
that knowledge out of their head. That is why the DNI says this 
is not a technical issue but a political issue and why I think 
the agreement is a good idea, because it puts Iran on a 
different path. Iran hasn't decided to go for nuclear weapons, 
despite the media claims. The DNI says it has not made the bomb 
decision. This is why I think this is important.
    But they were very different programs. Again, the North 
Koreans focused on the plutonium route. The Iranians focused on 
the uranium route. They don't really need the North Koreans. I 
mean, they are already there. The question is how do we keep 
them from making the decision, not how do we keep them from 
being there. That horse is out of the barn.
    Mr. Keating. And just to follow up on the second part, with 
missile cooperation, there is a lot of expert knowledge that 
assesses Iran has likely exceeded North Korea's ability to 
develop, test, and build ballistic missiles. So, in your view, 
would Iran have to gain--what would they have to gain from 
missile cooperation with North Korea? You know, how would the 
conclusion of the nuclear agreement with Iran affect Iran's 
incentive to work with North Korea in this kind of technology 
if so many experts believe they have already exceeded that?
    Mr. Walsh. Yeah. Well, I think Iran's program has been sort 
of slow and steady wins the raise, and North Korea's has sort 
of tried to leap to the end. Iran has solid fuel rockets. North 
Korea doesn't have solid fuel rockets. When you have a liquid 
fuel rocket, that makes that rocket vulnerable to preemption 
and attack. So the Iranians don't want liquid fuel propulsion 
technology. That is not going to help them at all.
    Now, to be fair, both face a problem with accuracy of their 
missiles and their guidance systems, but neither is in a 
position to help the other with that because they both have the 
same problem.
    Mr. Keating. Another quick question. How would you compare 
the two agreements, North Korea and Iranian? What was lacking 
in--what were some of the problems with the North Korean 
agreement, and have they been addressed?
    Mr. Walsh. Well, you know, as a summary statement about the 
comprehensive agreement, any agreement that is hated by Iranian 
hardliners and supported by Israeli intel and military people 
can't be all bad, but to answer specifically your question, the 
Agreed Framework was 3-pages long 20 years ago. The 
comprehensive agreement is 159 pages in the golden era of 
verification. As I alluded to, it is--compared to all the other 
nonproliferation agreements--this is not our first rodeo. We 
have been doing this for 70 years. Compared to all the others, 
this is the strongest multinational nonproliferation agreement 
ever negotiated. It has unprecedented features. A dedicated 
procurement channel does not exist in any of the past 
agreements; snapback sanctions, does not exist in any of the 
previous agreements; the science and the mandates available to 
IAEA today, the additional protocol did not exist in 1994, 
which gives the agency the right to go to any site, military or 
otherwise, on Iranian soil.
    And in terms of technology, we are in the digital age of 
verification. There were no satellites and open-source material 
and digital seals and environmental sampling. All of this is 
available to us today. This is not your father's IAEA, and this 
is not your father's verification system. We enjoy, as the 
Snowden revelations would seem to imply, robust national 
technical means that we can apply in addition to IAEA 
inspection.
    Mr. Keating. And what do you think in terms of 
international sanctions on North Korea? What has been their 
effect?
    Mr. Walsh. Well, the bottom line there. It is not about 
Iran. Is it about China and Russia, right? We are blessed as a 
country in that we are surrounded by two big oceans and two big 
friendly neighbors. The second luckiest country in 
international relations, North Korea, because they are right 
smack next to the biggest growing economy on the planet. And as 
long as that is true, everything else sort of pales in 
comparison to that. I must add, though, that the Russians who 
also share a border, have been a heavy contributor in this 
regard.
    Mr. Keating. I yield back, Mr. Chairman.
    Mr. Poe. I thank the gentleman. The Chair recognizes the 
gentleman from Arizona Mr. Salmon.
    Mr. Salmon. Thank you, Mr. Chairman.
    Some say that North Korea may be less likely to selling 
nuclear weapons or weapon qualities of fissile material than 
nuclear technology or less sensitive equipment to other 
countries in part because it needs its limited fissile material 
for its own deterrent. Some believe that is possible. I am not 
sure that that is something I believe, but I want to throw that 
out there.
    However, that the North might find a nuclear weapons or 
fissile material transfer more feasible if its stockpile is 
large enough or it faces an extreme economic crisis with a 
potentially huge revenue from such a sale could help the 
country survive. So my question is, what is the current 
estimate of North Korea's stockpile and how satisfied are they 
with what they have? Anybody have any ideas on that?
    Ms. Rosett.
    Ms. Rosett. China gave that estimate that by next year they 
could have 40 nuclear warheads. They had enough for that. We 
also know from sources, such as David Albright's think tank 
here in Washington, ISIS, not the terrorist group, that the 
size that can be seen of the uranium enrichment plant at the 
Yongbyon Nuclear Complex has at least doubled since they 
unveiled it in 2010. Remember that they denied even having that 
for years. Finally, then, displayed it to an American nuclear 
physicist. Now it has been expanding. U.S. officials suspect 
there are additional hidden facilities. So it is quite 
substantial. And if I may also just address the different 
plutonium and uranium tracks. The reason that North Korea began 
with plutonium is the Soviets built them a reactor which they 
then disregarded the NPT on, and they had spent fuel which the 
Agreed Framework let them keep. Meanwhile, in the 1990s, they 
were also hosting A.Q. Khan of Pakistan's A.Q. Khan network, of 
which Iran was a member as well. So they actually pursued both 
tracks from the beginning. And this is just what you have seen 
Iran doing. You can argue that the Arak heavy-water reactor is 
now going to be filled up with cement, but you have seen the 
two countries, actually as quickly as they could each in their 
own way, pursuing these. And from China's estimates, from 
estimates we have had in past years, from the signs of 
activity, you have to consider that North Korea probably has a 
substantial quantity and you need to ask the following 
question: What for? How many nuclear warheads could North Korea 
use before it was hit? So anything extra you are seeing is for 
what? Bragging rights? For sale? One more thing, danger of 
bragging rights. This isn't about protecting your country. This 
is about sustaining your regime for both Iran and North Korea. 
That is what these weapons are for. And that is why they are 
going to go after them. It is not--Iran, if this is all about a 
commercial and nuclear program for Iran, this has been the most 
elaborate windup in human history to a civilian power project. 
Okay. And no, what they want are the weapons. North Korea has 
been going after them. I would look at China's estimates with 
some suspicion. It is China. But when China is saying to 
American nuclear scientists they can have 40 warheads by next 
year, you should be concerned.
    Mr. Salmon. Well, I don't even think the administration is 
advocating that this is for peaceful nuclear purposes. I mean, 
this is a country that is probably more awash in oil and gas 
than any other. I mean, I think anybody that is naive enough to 
believe that they were actually creating this nuclear program 
for peaceful purposes deserves the award of the month or the 
award of the year.
    Ms. Rosett. If I may, in the JCPoA Iran reaffirms that it 
never will--it said it never will seek a nuclear weapon. In 
other words, it lies in the JCPoA. So if you are concerned 
about cheating, it should concern you from the beginning that 
it includes clear lies by the Iranian regime from the get-go. 
That is--also just one other thing, on the procurement 
networks, North Korea has road mobile KN-08 intercontinental 
ballistic missiles. That is what our military has been warning 
about. They think that these things are actually usable. Where 
did North Korea get the vehicles? They were sold by China. The 
Hubei Sanjiang space vehicle company, and when they were 
caught, because North Korea paraded them in 2012, China said, 
``Oops, we thought they were for use in logging. We sent them 
thinking they were being used as lumber trucks.'' I submit to 
you, beware of the similar things going on with Iran, and on 
the procurement channel, it operates under complete 
confidentiality.
    If you liked Oil-for-Food, you will love the U.N. 
procurement, the P5+1 procurement channel for Iran's nuclear 
program. I am not even sure Congress will be able to see what 
is being approved through that. Thank you.
    Mr. Salmon. Thank you. I see I have run out of time.
    Mr. Poe. I recognize the gentleman from California.
    Mr. Sherman. I just want to note a few things for the 
record.
    This new deal with Iran is more intrusive than prior deals. 
Those prior deals have prevented Holland from having nuclear 
weapon. Costa Rica doesn't have the bomb. But as far as 
stopping Iraq and Syria. That was bombing that stopped them 
from having the bomb. Qadhafi thought he was going to be 
destroyed; turned out he was right. South Africa, it was 
Mandela, and the newly independent states gave up their weapons 
back to Russia because the Russian Army wouldn't have it any 
other way.
    So it is hard to say that any of the deals we have had have 
prevented a determined state from getting a nuclear weapon. But 
Costa Rica remains nuclear free. And just because the deal is 
more intrusive than prior deals doesn't mean it is anywhere 
close to being good enough. The IRGC says they are against the 
deal. If Iran was trying to get Congress to go along with the 
deal, they would put out the word that the IRGC was against the 
deal. So we don't know if that is genuine or for our 
consumption. We do know that everyone in the Israeli Government 
is against this. The vast majority of former officials in the 
Israeli Government are against this. You know, even, we have 
dissenting opinions in this country from the 95 percent view, 
but only 1 percent of the United States Senate is socialist or 
at least availably so. You get a range of views in any 
democratic country. As I think the chairman pointed out, or 
wrote, it is insane to think that Iran has this nuclear program 
as an efficient way of generating electricity. They are 
spending billions of dollars on it. They have incurred hundreds 
of billions of dollars, at least tens of billions of dollars, 
of sanctions to their economy, all so they could generate 
electricity? This is a country that flares its natural gas. So 
it is free natural gas. They have no other use for it. Easiest 
thing in the world to do is produce a natural gas electric 
generation facility.
    Iran has the means and the motive. The means here is they 
are going to get their hands on $100 billion. That puts them 
in, some say $56 billion. I think it is considerably more than 
that. That puts them in a position to buy a weapon from either 
Pakistan or North Korea. And they certainly have the motive. 
Look what happens to leaders that get themselves on the 
American people fear-and-hate-you list, the axis of evil list. 
Qadhafi is dead. Saddam Hussein is dead. Kim Jong-un is alive 
and well and doing unusual things in North Korea because he has 
nuclear weapons. The Supreme Leader has not failed to notice 
this.
    So the question is, how do we--it is beyond these hearings 
to talk about how to prevent Pakistan from selling nuclear 
weapons. There are two ways to prevent Iran from buying a 
nuclear weapon from North Korea. First, don't let it have its 
hands on $56 billion to $100 billion. Nobody is going to sell a 
nuclear weapon for pocket change.
    The second would be controls on North Korea. And the 
question is, should we be prepared to keep North Korea off the 
terrorist list, although they deserve to be on it, and even 
recognize them as a nuclear weapon state providing they agree 
to controls--to observation, not that would prevent them from 
doing whatever they are going to do, just enough to prevent 
them from selling it to somebody else.
    Mr. Berman.
    Mr. Berman. Well, sir, let me, if I may, could I pick up on 
a point that you made earlier, when you were talking about the 
IRGC and sort of, you know, where they come down on----
    Mr. Sherman. No, because I have got 1 minute. Go ahead.
    Mr. Berman. Oh, okay.
    Mr. Sherman. Stick to my question.
    Mr. Berman. Well, in that case, I think it bears noting 
that what you are looking at in both countries is sort of a 
target of opportunity.
    With regard to Iranian hardliners, they understand----
    Mr. Sherman. I am asking about North Korea. As long as they 
have nuclear weapons, they might sell them. Could be Iran, 
could be somebody else that emerges later. Should we cut a deal 
with North Korea that will prevent them from surreptitious 
sales of a nuclear weapon and should we be prepared to give to 
North Korea recognition as a nuclear weapon state, agreement 
not to put them on the terrorist list or anything else you care 
to identify----
    Mr. Berman. I don't think so, sir, for the simple reason 
that even if the most rosy predictions that you heard this 
morning at this table are true, they have not been proven out 
over time. And the idea that you move directly from a JCPoA 
with Iran to a JCPoA with North Korea stretches----
    Mr. Sherman. Okay, anybody have a contrary view?
    Mr. Walsh. Yes.
    Mr. Sherman. Ms. Rosett.
    Ms. Rosett. Yes. May I just say, it would not work. That 
regime, the nuclear program in North Korea is so entrenched, so 
deep, so vital, they will not--you will not talk them out of 
it.
    Mr. Sherman. I am not asking to talk them out I am talking 
about just letting us watch to make sure they don't sell.
    Ms. Rosett. They won't let you.
    Mr. Sherman. They won't let you do that for anything we 
could deliver. Anybody else disagree?
    Ms. Rosett. There is a price at which they would make that 
deal. There is always a price. But the price would be such that 
they would emerge from it with yet more nuclear weapons. You 
would buy far worse trouble. They will not make a deal that 
will let you----
    Mr. Sherman. That will prevent--okay.
    Mr. Niksch. We haven't tried it with North Korea.
    Mr. Sherman. And we haven't even offered them a non-
aggression pact.
    Mr. Niksch. The Bush administration basically took what was 
then called the proliferation issue off the table in 2008. So 
when North Korea had to issue a disclosure statement about its 
nuclear programs, North Korea did not have to say a word and 
did not say a word about its nuclear activities even in Syria.
    Mr. Sherman. Let me just get in one more comment, and that 
is, unless it is clear that we hold China----
    Mr. Niksch. So what you are talking about is not----
    Mr. Sherman. Unless we hold China responsible for what 
North Korea does, given the fact that the existence of the 
North Korean regime is dependent entirely on China, or 
substantially on China, we are going to have to worry an awful 
lot about what North Korea might do in this situation or some 
other situation. It is China's fault that Kim Jong-un is still 
there.
    I yield back.
    Mr. Poe. Okay. The Chair recognizes the gentleman from 
Texas, Mr. Weber, for 5 minutes.
    Mr. Weber. Thank you. I forget which one it was that said 
there has been reporting on the North Korea success Richard 
Engel and Chris Nelson. Was that you, Dr.----
    Mr. Niksch. Richard Engel of NBC News and Chris Nelson, who 
writes the Daily Nelson Report, that all of us Korean watchers 
read daily.
    Mr. Weber. So you mentioned a date for Richard Engel of 
April 3, 2013, but you didn't----
    Mr. Niksch. A report on NBC News.
    Mr. Weber. Okay, but you didn't mention a date on Chris 
Nelson. You say he writes daily.
    Mr. Niksch. It was May 2, 2013.
    Mr. Weber. Okay, and you said that the--now, you also said, 
I think, and I don't want to put words in your mouth, that this 
administration--and it is probably not just this one--but has a 
policy of nondisclosure and denials.
    Mr. Niksch. This goes back into the Bush administration. 
Both the Bush and Obama administrations have had this policy, 
both with regard to Iranian--North Korean nuclear 
collaboration----
    Mr. Weber. Got you.
    Mr. Niksch [continuing]. And also denials that North Korea 
has been assisting through Iran in supporting Hezbollah and 
Hamas.
    Mr. Weber. Okay. Were you the one that said the Chinese 
told us in February that productions of warheads were 
increasing, and they would have about 40? Or was that----
    Ms. Rosett. That was me. And may I also just say, there is 
a reporter who won a Pulitzer Prize, wrote for the LA Times for 
many years, who wrote on August 4, 2003, that according to his 
sources inside Iran, and with ``foreign intelligence 
agencies,'' there was evidence--he put this quite clearly--I 
can give you--send of the article--that North Koreas were in 
Iran developing--working on warheads, nuclear warheads with the 
Iranians. The name of that journalist is Douglas Frantz. He was 
the deputy chief of staff for the Senate Foreign Relations 
Committee.
    Mr. Weber. Frantz?
    Ms. Rosett. Frantz, F-r-a-n-t-z. It is in my written 
statement. He was the deputy chief of staff to John Kerry when 
John Kerry was a Senator, and he now works in the State 
Department in the Bureau of Public Affairs.
    Mr. Weber. Okay, so----
    Ms. Rosett. I have tried to interview him about that story 
and have been told he is not available. I would suggest that 
the Secretary speak with his own long-time trusted former 
reporter who wrote this as a documented fact in 2003.
    Mr. Weber. Okay, great. Great point. You also said, if I 
think, if I heard correctly, that there was a former North 
Korean Ambassador to the IAEA that set up the procurement 
channel?
    Ms. Rosett. Yes, Yun Ho-jin. He is on the U.S. designated 
list. He worked in Vienna. In fact, at one point he showed IAEA 
inspectors around the North Korea Yongbyon reactor. When the 
Al-Kibar reactor was discovered in Syria, he turned out to be a 
major procurement agent. He had been buying goods. In other 
words, North Korea was a very full service shop for that 
operation. They didn't just give them the designs. They helped 
them buy things worldwide. He had fronts in Europe, in 
Damascus, in China, and in Beijing. To this day, the 
administration is so secretive about this; they must know 
things about those transactions. They don't even give the 
addresses of his companies.
    Mr. Weber. What was the name of the site in Syria?
    Ms. Rosett. Sure. It was in Syria's Deir ez-Zor province. 
It was near a place called Al-Kibar and the CIA briefing on 
that, the Bush administration was also terribly secretive.
    Mr. Weber. Okay, who discovered that?
    Ms. Rosett. The Israelis discovered it.
    Mr. Weber. The Israelis discovered it.
    Ms. Rosett. They told the United States, and----
    Mr. Weber. Should we fear they have moved to Iran now?
    Ms. Rosett. I hope they are there looking. The problem is, 
are we listening, and does the public learn?
    Mr. Weber. Okay.
    Ms. Rosett. I mean, let me just say one more thing on that 
Syrian reactor. It was discovered while the U.S. was concluding 
a nuclear agreement with North Korea, and we were being told--
--
    Mr. Weber. You mean they were cheating while we were 
negotiating?
    Ms. Rosett. Exactly, very likely with Iranian knowledge of 
the whole scene. Okay, the administration should tell us more 
about what we want to know.
    Mr. Weber. Let me move on. I just wanted the history.
    Ms. Rosett. While we were being told the reactor was being 
shut down in North Korea, the North Koreans were actively 
building near completion the reactor.
    Mr. Weber. Got you. I appreciate that. People lie. There is 
a shock.
    So, Dr. Walsh, you mentioned solid fuel versus liquid fuel 
rockets and you mentioned that snapback sanctions did not exist 
back in--and this wasn't your--I don't know how you said it--
your father's agreement or something of that nature.
    Mr. Walsh. Yes.
    Mr. Weber. And so snapback sanctions you believe now do 
exist, and so, in your opinion, in 24 days, if somebody goes in 
there and gets these sanctions back in place--and I think 
Secretary Kerry said that they were within 2 months of possible 
breakout when they started negotiating 2 years ago. So is 24 
days of the supposed having a discussion over a clandestine 
site--that is almost a month. So if they were close to 2 
months, do you, in your opinion, do you think snapback 
sanctions happen fast enough to prevent a 2-month breakout? 
Really?
    Mr. Walsh. I appreciate the question because under the 
Joint Comprehensive Agreement, breakout times goes from a 
couple of months, which is today, or it was, you know----
    Mr. Weber. And you don't think they are cheating while we 
are negotiating?
    Mr. Walsh [continuing]. Sir, to a year. Because we are 
removing 98 percent of their enriched material and cutting 
their centrifuges by two-thirds. That is what the agreement 
does. It extends breakout from a couple of months to a year. On 
those 24 days, people--there seems to be confusion about that. 
If IAEA wants to get into a site, Iran blocks them, and then we 
see trucks pulling up and ferreting stuff away, or they 
bulldoze the building, that is prima facie noncompliance with 
the agreement. Then the thing kicks in, but we have a year 
breakout period.
    Mr. Weber. You don't leave any room for underground 
tunneling of any sort where they are actually doing things 
underground?
    Mr. Walsh. Well, we have environmental sampling. We have 
tunnel monitors. We have----
    Mr. Weber. After they break out in 2 months, it is a little 
late to be worried about----
    Mr. Walsh. It is a year breakout, sir. It is a year 
breakout under the comprehensive agreement.
    Mr. Weber. Yeah, but they already said they were within 2 
months the last time.
    Mr. Walsh. No, prior to the interim agreement, prior to the 
JPOA----
    Mr. Weber. I get that. If you trust that everything they 
have they reveal to us and that we can----
    Mr. Walsh. Well, the DNI says that. I am willing to go with 
the DNI.
    Mr. Weber. Mr. Chairman, I yield back.
    Mr. Poe. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Ms. Rosett, did I say it correctly?
    Ms. Rosett. That is correct, yes.
    Mr. Perry. Thank you. We know that both Iran and North 
Korea do use technology from and through China. I am wondering 
how China's involvement affects the relationship between Iran 
and North Korea, and not only in a material way but if you can, 
or if anybody can, the subtleties through the U.N. in anything 
that happens.
    Ms. Rosett. The U.N. is not your friend in this. Remember, 
it was--let's start with the fact that at United Nations, Iran 
for the past 3 years has chaired the second largest voting 
block in the General Assembly, the Non-Aligned Movement. The 
U.N.--the reason I mention Oil-for-Food is that there is 
considerable disincentive for any one state to call out 
cheating, to do anything else. It is a collective problem. And 
that is exactly what happened with the incredible corruption 
through Iraq contracts overseen by the U.N. This deal sets up a 
similar mechanism in which things will go through the U.N., and 
it is very hard to get information.
    With respect to China, there is much debate about this. It 
is my view, and I have been covering these areas since the 
1980s when I worked in Far East. I will just add, I made a trip 
to North Korea in 1991. I didn't need to go to Iran. There were 
Iranians on my plane in from Beijing to Pyongyang. They are 
very busy there. I have seen it.
    But China, I believe, benefits from the instability that is 
created by North Korea. And if you ask yourself the simple 
question, ``who do North Korea or Iran, for that matter, have 
an incentive to attack, and who do they have an incentive not 
to,'' I would argue that they don't chant, ``Death to Russia,'' 
``Death to China.'' They chant, ``Death to America,'' ``Death 
to Israel.'' They are, by character of the regime, opposed to 
free societies. That is not frivolous. And they also don't dare 
attack Russia or China, who would obliterate them----
    Mr. Perry. Would Iran use or could they use North Korean 
territory to test, to store, to--for instance, in the 
agreement, there is a discussion or at least a point of a 
multiport explosive device.
    Ms. Rosett. Multipoint detonation, yes.
    Mr. Perry. Right, for nuclear purposes. Now, I watched the 
Secretary of Energy today say that would not be allowed, yet in 
the agreement, it says that the Commission will facilitate 
their use of that. Is that something that would be--well, I 
guess they can do it in Iran based on the agreement.
    Ms. Rosett. They can do it if it is watched and surveyed, 
but it is an excellent question. There is already speculation 
that Iran may have received test data from North Korea's tests. 
In testimony to this committee last year, former--an Obama 
administration official Glyn Davies was asked, would the two 
cooperate, Iran and North Korea, on nuclear test data? He said 
they would have every incentive to do so.
    Mr. Perry. What is Russia's relationship with North Korea 
as it relates to Iran and this situation with their nuclear, 
the peaceful program?
    Ms. Rosett. Yeah, Russia has become much, much friendlier 
with North Korea. Russia built the reactor to begin with. 
Russia delights right now in frustrating the United States. 
Russia doesn't--North Korea is not going to launch a nuclear 
attack on Russia, okay. Russia is very happy with what is 
happening with North Korea right now.
    And may I add, there is considerable reason why Iran might 
use North Korea for a nuclear test site. There is no other 
country in the world in the 21st century that has conducted 
nuclear tests. It is conspicuous when you do that. North Korea 
has done three. They have threatened a fourth since last year. 
And it would be the best way you could possibly hide a test in 
plain sight. And it is very easy. You don't need Iranians 
sitting there on the bleachers. All you need is a thumb drive 
to----
    Mr. Perry. Forgive me.
    Dr. Walsh, so I listened to your testimony, which seemed to 
countervail everybody else on the panel here.
    Mr. Walsh. I am the minority witness.
    Mr. Perry. But based on what we have heard here, you feel 
completely comfortable, it is absolutely zero. I think that is 
what your characterization was, zero evidence of collaboration 
between North Korea and Iran?
    Mr. Walsh. Well, on nuclear, that is what the Congressional 
Research Service says. And as I pointed out, at no point has 
the DNI, the U.N. Panel of Experts for Iran, the U.N. Panel of 
Experts for North Korea, or IAEA ever made that claim. I would 
encourage you all if you have doubts about it, simply call the 
DNI into a closed session and ask.
    Mr. Perry. Doctor----
    Mr. Niksch. I wrote for the Congressional Research Service, 
and my report, which I believe you have, ``North Korea Nuclear 
Weapons Development and Diplomacy,'' which I wrote and updated 
from 2007 to 2012, contains a section on nuclear collaboration 
with Iran and Syria. And if you read that, it goes to the point 
I made that to find out about this, you are not going to hear 
it from State Department or even the U.S. intelligence 
community for the most part.
    Mr. Perry. Why?
    Mr. Niksch. There is a policy--again, going back to the 
Bush administration--of what I would call issue avoidance and 
nondisclosure about the Iranian-North Korean relationship.
    Mr. Perry. Thank you, Mr. Chair, I yield.
    Mr. Sherman. There is a policy on issue avoidance?
    Mr. Niksch. Issue avoidance and nondisclosure.
    Mr. Poe. That is a policy?
    Mr. Niksch. Yes.
    Mr. Sherman. Mr. Chairman, I think that is called the 
mushroom policy.
    Mr. Niksch. The State Department constantly issues 
statements that North Korea is not involved in any state 
support of terrorist groups and therefore should not go back on 
the official U.S. list of terrorism-supporting organizations. 
But in 2011, Secretary of Defense, then Secretary of Defense 
Gates, gave a speech in San Francisco----
    Mr. Poe. Excuse me, Dr. Niksch. The Chair reclaims the time 
with just one question. But your report will be made part of 
this record, without objection.
    Mr. Niksch. His speech was a lot different than the denials 
from the State Department.
    Mr. Poe. All right, I am going to recognize Mr. Yoho from 
Florida for his 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman.
    And I will probably come back to you Dr. Niksch in a 
minute.
    But, first, I want to go to Dr. Walsh. You were saying 
there is no evidence that North Korea has helped Iran, and 
there is no conclusive evidence according to the DNI, but yet, 
Mr. Frantz's article and research says that they were over 
there, they were working in 2003, and that is the period of 
time when there is evidence of a nuclear trigger detonation 
maybe. And the IAEA has got a 14-page annex, pretty conclusive 
that there was a major explosion, possibly a nuclear trigger 
device that was backed up by 1,000 pages of documents from 
Iran. And for you to say that there is no evidence, I think 
there is plenty of evidence out there.
    And then you said we have anywhere, any time, anyplace, and 
I have heard John Kerry say that same thing. And yet we know 
that is not true because it is only time anywhere is if Iran 
says it is okay. And the secret deal that we found out from Tom 
Cotton and Mr. Pompeo, talked that--they brought this to light, 
and we know that through the IAEA, there is an agreement. And 
it is private between them and Iran, and it is with their 
permission. And you were talking about, we have access to 
environmental sampling. That is not true. The environmental 
sampling is done by Iran, and, you know, as Senator Menendez 
said today, that would be like having Lance Armstrong pull his 
own blood sample. I mean, let's get real here. This is a bad 
deal. And for you to say that this is a good deal for America 
and the rest of the world, I find that disingenuous because 
this administration has backed us into a corner going to the 
U.N. and saying that if we pull out, it is all on us. And I 
think that is bad for us, it is bad for the world.
    And with the North Korea deal that was done, Japan and 
South Korea wanted the deal because it affected them very 
strongly, and we went along with that deal.
    On this deal, none of our Middle Eastern partners were 
there. Israel wasn't there. None of them want it. And we went 
ahead with this. It just doesn't make any sense. What are your 
thoughts on--just on North Korea working with Iran?
    Mr. Walsh. Well, on several different things. On the Frantz 
report, as I say in my written statement, historically--and I 
am the person here who is, you know, that is what I do in my 
scholarship is look at the nuclear histories in states that 
start down the path, stop and reverse course--media reports 
have proven incredibly unreliable. I will take the DNI every 
day of the week. Any time or anywhere inspection is in the 
additional protocol, it has been in the additional protocol; it 
has been exercised. It is not a secret deal. Yes, it is 
confidential. That is normal regular operating procedure for 
the agency.
    This is not the first time they have dealt with this 
situation. When South Africa denuclearized, they went in. It 
was confidential. When the U.S. shows nuclear stuff to the IAEA 
we don't give the Russian Duma access to that report. For the 
agency to do its work, it has to--which is with sovereign 
states--it has to maintain confidentiality to be the effective. 
Bad for the----
    Mr. Yoho. I am going to interrupt you though. We pay 25 
percent of the budget for the IAEA, and if we are paying that 
much, I want to know the information because we are supposed to 
vote on a deal. And Secretary Kerry said we are going to get 
briefed on it. That doesn't cut it for me. I want the 
information, so we can make our own decision.
    I am going to go to Dr. Niksch now.
    Do you have any evidence that the missiles you were talking 
about from North Korea or any other military specifically for 
nuclear weapons, being conducted between Iran and North Korea, 
do you have any information on that for sure, that we know 
there is transfer there or has been in the past?
    Mr. Niksch. Certainly with regard to the Nodong 
intermediate-range missile that I have mentioned. The Shabab-3 
missiles that Iran produced contain significant components of 
the North Korean Nodong. And North Korea and Iran from, again, 
numerous reports, citing European, German, Israeli defense and 
intelligence officials, that collaboration in trying to improve 
the Nodong and Shahab-3 missiles has continued.
    Mr. Yoho. Okay.
    Mr. Niksch. Every North Korean missile test since 2006 has 
seen, reportedly, Iranian delegations in North Korea to observe 
those tests and undoubtedly get the data from those tests.
    Mr. Yoho. All right, thank you. And I heard John Kerry say 
this multiple times, that you can't bomb knowledge out of the 
people. And you said that. But you sure dang sure can bomb the 
will out of them, and I am not advocating more, but if we would 
have negotiated from a power--or position of strength, we would 
be in a better situation, and I think we would all be safer 5 
years from now.
    And this deal will go through, possibly, and when it does, 
you know, it is going to be hanging on somebody's reputation. 
You know, they will either be the next Chamberlain in history, 
or if they are lucky, they will be the next Reagan. See you.
    Mr. Poe. I want to thank all of our witnesses. Excellent 
testimony. I wish we could go on for a longer time, and I 
appreciate your willingness to continue talking about this.
    And, Ms. Rosett, I want to especially thank you for your 
work that you did in the U.N. Oil-for-Food program, the 
scandal, and revealing that.
    This concludes the hearing of the three subcommittees, and 
the three subcommittees are adjourned. Thank you.
    [Whereupon, at 4:35 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
